       April 15, 2002




   Financial Management

   Promptness of FY 2002 Third
   Quarter DoD Payments to the
   Department of the Treasury for
   District of Columbia Water and
   Sewer Services
   (D-2002-082)




             Office of the Inspector General
                          of the
                 Department of Defense

                                Constitution of the
                              United States of America

No Money shall be drawn from the Treasury, but in Consequence of Appropriations
made by Law; and a regular Statement and Account of the Receipts and Expenditures
of all public Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                   Defense Finance and Accounting Service
WASA                   Water and Sewer Authority
                       Office of the Inspector General, DoD
Report No. D2002-082                                                    April 15, 2002
  (Project No. D2001FA-0154.003)



     Promptness of FY 2002 Third Quarter DoD Payments
       to the Department of the Treasury for District of
              Columbia Water and Sewer Services

                                   Executive Summary

Introduction. This report covers FY 2002 third quarter payments and is one in a
series of reports discussing the promptness and completeness of DoD payments to the
Department of the Treasury for District of Columbia water and sewer services. Public
Law 106-554, the Consolidated Appropriations Act of 2001, requires the inspector
general of each Federal agency to audit the agency’s promptness in paying the District
of Columbia for water and sewer services. The audit reports must be submitted to the
House and Senate Appropriations Committees within 15 days of the start of each
quarter.

The District of Columbia Water and Sewer Authority supplies both water and sewer
services to Federal agencies and DoD Components within the National Capital Region.
The Department of the Treasury is the collection agent for Federal agencies and
DoD Components’ water and sewer payments, with the Department of the Treasury
submitting a single payment to the Water and Sewer Authority. The DoD Components,
composed of 17 separate installations, sites, and organizations, are required to make
advance quarterly payments to the Department of the Treasury for estimated bills on
anticipated water usage in FY 2002.

Objective. The audit objective was to determine the promptness of FY 2002 third
quarter DoD payments to the Department of the Treasury for District of Columbia
water and sewer services.

Results. DoD Components, except Fort Myer, made third quarter FY 2002 payments
to the Department of the Treasury for District of Columbia water and sewer services.
The Department of the Treasury withdrew $77,000 from the Army on April 2, 2002, to
pay the District of Columbia for water and sewer services provided to Fort Myer.
Army officials dispute the appropriateness of the $77,000 the Department of the
Treasury withdrew for Fort Myer, because Fort Myer discontinued receiving water
services from the District of Columbia in 1999. Also, Washington Headquarters
Services paid $187,000 for Arlington National Cemetery’s first, second, and a portion
of the third quarter FY 2002 water and sewer bill, as required by Public Law 107-20.
The Navy and Air Force have credit balances from prior overpayments and were not
required to make quarterly payments for FY 2002. See the finding section for
discussion of audit results.

Management Comments. We provided a draft report on April 11, 2002. No written
response to this report was required and none was received. Therefore, we are
publishing this report in final form.




                                        ii
Table of Contents

Executive Summary                                                   i


Introduction
     Background                                                     1
     Objective                                                      2

Finding
     DoD FY 2002 Third Quarter Payments to the Department of the
       Treasury                                                     3

Appendixes
     A. Audit Process
         Scope and Methodology                                      6
         Prior Coverage                                             6
     B. DoD Customers of the District of Columbia Water and Sewer
          Authority                                                 8
     C. Report Distribution                                         9
Background
    This audit was required by Public Law 106-554, the Consolidated
    Appropriations Act of 2001. Public Law 106-554 requires the inspector general
    of each Federal agency that receives water and sewer services from the District
    of Columbia to report to the Congressional Appropriations Committees on the
    promptness of payments within 15 days of the start of each quarter. This report
    covers FY 2002 third quarter payments and is one in a series of reports
    discussing the promptness and completeness of DoD payments to the
    Department of the Treasury for District of Columbia water and sewer services.

    The District of Columbia Water and Sewer Authority. The District of
    Columbia supplies both water and sewer services to Federal agencies and
    DoD Components within the National Capital Region. Since October 1996, the
    District of Columbia Water and Sewer Authority (WASA) has been responsible
    for delivery of water and sewer services to DoD Components. WASA provides
    meter readings and annual estimated billings to the Department of the Treasury
    for water and sewer services provided to the Federal agencies, including
    DoD Components.

    Department of the Treasury Responsibility. Under the District of Columbia
    Public Works Act of 1954, the Federal Government was to receive water and
    sewer services from the District of Columbia, and the District of Columbia was
    paid with an annual lump sum in accordance with the District of Columbia
    Appropriations Act. The District of Columbia Appropriations Act of 1990
    (Public Law 101-168) changed the payment process by designating the
    Department of the Treasury as the collection agent for the Federal agencies’
    water and sewer payments, with the Department of the Treasury remitting a
    single payment to the District of Columbia. Public Law 106-554 amends the
    process used by the Federal agencies to make payments to the Department of the
    Treasury. The Department of the Treasury is now authorized and directed to
    automatically withdraw funds from Federal agencies and provide those funds to
    WASA by the second day of each quarter when agencies do not forward timely
    payments of amounts billed by WASA. The Department of the Treasury bills
    Federal agencies and DoD Components annually for their estimated water and
    sewer usage and makes quarterly payments to WASA based on meter readings
    and estimates provided by WASA. The DoD Components are required to make
    quarterly payments to the Department of the Treasury for those annual estimated
    bills. See Appendix B for a list of DoD components, composed of 17 separate
    installations, sites, and organizations, that received WASA services.

    Public Law 107-20. Public Law 107-20, the Supplemental Appropriations Act
    of 2001, removes the authority of the Department of the Treasury to withdraw
    funds from Arlington National Cemetery (Cemetery) for payment to the District
    of Columbia for water and sewer services. The law requires that DoD pay the
    difference between the amount the Cemetery previously paid for estimated water
    bills and the actual amount billed to the Cemetery. Furthermore, the law
    requires that for FY 2002 and future years, the Cemetery’s water and sewer
    bills be based on actual meter readings on the grounds of the Cemetery. The


                                       1
    law also directs the Department of the Treasury to reimburse the Cemetery for
    previous withdrawals with funds taken from other DoD appropriation accounts.

    Federal Agencies Responsibility. Public Law 101-168 mandates responsibility
    to the respective Federal agencies for payment of water and sewer services.
    The funds for the services come through the agencies’ operating budgets and
    their respective appropriations bills. Each quarterly payment is due to the
    Department of the Treasury account, “Federal Payment for Water and Sewer
    Services,” on the first day of the quarter. DoD Components make their
    payments to the Department of the Treasury through the Defense Finance and
    Accounting Service (DFAS).

    DFAS Responsibilities. DFAS provides finance and accounting services, to
    include making bill payments, to DoD Components and other Federal agencies.
    Specifically, DFAS-Indianapolis Center provides financial services to the Army,
    DFAS-Cleveland Center provides those same services to the Navy, and DFAS-
    Omaha Operating Location provides financial services to the Air Force. The
    DoD Components submit requests for payments of water and sewer services to
    the appropriate DFAS location, and DFAS pays the Department of the Treasury
    either by check or electronic transfer in the amount indicated on the request.

Objective
    The audit objective was to determine the promptness of DoD FY 2002 third
    quarter payments to the Department of the Treasury for District of Columbia
    water and sewer services. See Appendix A for a discussion of the audit scope
    and methodology and prior coverage related to audit objectives.




                                       2
           DoD FY 2002 Third Quarter Payments to the
           Department of the Treasury
           DoD Components, except Fort Myer, made third quarter FY 2002
           payments to the Department of the Treasury for District of Columbia
           water and sewer services. The Department of the Treasury withdrew
           $77,000 from the Army on April 2, 2002, to pay the District of
           Columbia for water and sewer services provided to Fort Myer. Army
           officials dispute the appropriateness of the $77,000 that the Department
           of the Treasury withdrew for Fort Myer because Fort Myer discontinued
           receiving water services from the District of Columbia in 1999. Also,
           Washington Headquarters Services paid $187,000 for Arlington National
           Cemetery’s first, second, and a portion of the third quarter FY 2002
           water and sewer bill, as required by Public Law 107-20. The Navy and
           Air Force have credit balances from prior overpayments and were not
           required to make quarterly payments for FY 2002.

Promptness of FY 2002 Third Quarter DoD Payments
    DoD Components, except Fort Myer, made prompt payments of their District of
    Columbia water and sewer bills for the third quarter of FY 2002. The
    Department of the Treasury withdrew $77,000 for water and sewer services
    billed by the District of Columbia to Fort Myer. Army officials at Fort Myer
    believe that the bill should not be paid because Fort Myer discontinued water
    services with WASA in January of 1999 (FY 1999) after one quarter of usage.
    The Army previously paid $185,000 for FY 1999 estimated water usage for
    Fort Myer. As a result, Army officials contend that the $185,000 paid on the
    FY 1999 estimated water usage for Fort Myer should be sufficient. Because
    Public Law 101-168 does not provide a mechanism to resolve billing disputes
    between WASA and Federal Agencies or between Federal Agencies and the
    Department of the Treasury, the Army will continue to work with the
    Department of the Treasury and WASA to resolve all outstanding issues
    regarding Fort Myer. As shown in the following table, DoD Components were
    billed $2.3 million, paid $1.4 million, and had credits from overpayments of
    $1.6 million, and the Department of the Treasury withdrew $77,000 for the
    FY 2002 third quarter payments.




                                       3
                              DoD Components’ FY 2002 Third Quarter Bills and Payments
                                               (As of April 2, 2002)
                                                        Amount Billed          Credits from Overpayments           Amount Paid or Withdrawn
                                                         (thousands)                   (thousands)                       (thousands)

 Pentagon                                                 $ 343                              $      0                          $    343
 Arlington National Cemetery                                 267                                    0                               2671
 Fort Myer                                                     77                                   0                                 772
 Walter Reed Army Medical Center                             382                                    0                               382
                  3
 Fort McNair                                                    6                                   0                                 04
 Navy5, 6                                                    634                             (1,028)                                  0
                              7
 Bolling Air Force Base                                      409                                 (580)                                0
 National Imagery and Mapping Agency                         205                                    0                               4188
        Total                                             $2,323                            $(1,608)                            $1,487
 1
     Includes $80,000 paid by Arlington National Cemetery, $178,000 paid by Washington Headquarters Services for Arlington National
     Cemetery’s first and second quarter bills, and $9,000 paid by Washington Headquarters Services for the balance of Arlington National
     Cemetery’s third quarter bill ($80,000 + $178,000 + $9,000 = $267,000)
 2
     According to Department of Treasury officials, they withdrew Fort Myer’s third quarter payment. Fort Myer discontinued water
     services in January 1999. Fort Myer receives and pays for water services provided by Arlington County, Virginia
 3
     Includes Fort McNair, National War College, and National Defense University Center
 4
     Fort McNair paid $24,000 for the FY 2002 bill in the first quarter ($6,000 per quarter) and thus is not required to make quarterly
     payments
 5
     Includes Anacostia Naval Station, Bellevue Naval Housing, Naval Observatory, Marine Corps Barracks (8th & I), Naval
     Research Laboratory, Nebraska Avenue Annex, Potomac Annex, and Washington Navy Yard
 6
     Estimated amount billed for FY 2002 was $2.5 million ($634,000 represents the quarterly amount billed); a credit adjustment of
     $4.1 million ($1,028,000 represents the quarterly credit) for FY 1999 overpayments
 7
     Estimated amount billed for FY 2002 was $1.6 million ($409,000 represents the quarterly amount billed); a credit adjustment of
     $2.3 million ($580,000 represents the quarterly credit) for FY 1999 overpayments
 8
     The National Imagery and Mapping Agency paid $410,000 for the third and fourth quarters of FY 2002 bill and $8,000 for the first
     quarter of FY 2002




Arlington National Cemetery Payments
          Arlington National Cemetery paid less than the amount billed for FY 2002 water
          and sewer services. WASA billed Arlington National Cemetery about $267,000
          for the first three quarters, or about $89,000 per quarter of FY 2002. However,
          the Cemetery did not make FY 2002 first and second quarter payments. In the
          third quarter, Arlington National Cemetery paid $80,000 for the Cemetery’s
          FY 2002 water and sewer bill. Public Law 107-20 prohibits the Department of


                                                                 4
Treasury from withdrawing funds to pay the Cemetery’s bill. The law requires
that DoD pay the difference between the amount the Cemetery paid and the
amount billed to the Cemetery. Therefore, the Department of the Treasury
billed Washington Headquarters Services, and Washington Headquarters
Services paid $178,000 for the Cemetery’s first and second quarters, and $9,000
for the third quarter bills. Public Law 107-20 also mandates that future
payments from the Cemetery for water and sewer services be based on actual
water and sewer usage.




                                   5
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed DoD Component billing and payment
    information for the third quarter of FY 2002 for District of Columbia water and
    sewer services. Specifically, we reviewed bills received by DoD Components
    from the Department of the Treasury to establish the amounts billed for water
    and sewer services. We contacted the Defense Finance and Accounting Service
    to verify that payment was initiated. We also contacted the Department of the
    Treasury to confirm that funds available to DoD Components were withdrawn to
    pay the District of Columbia for FY 2002 third quarter water and sewer bills.
    See Appendix B for a list of the DoD Components that received water and sewer
    services from WASA.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Financial Management high-risk area.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data for our review of billing and payment data for water and sewer services
    provided to DoD Components by the District of Columbia.

    Audit Type, Dates, and Standards. We performed this program audit from
    March 2002 through mid-April 2002, in accordance with generally accepted
    government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD, the Defense Finance and Accounting Service, and
    the Department of the Treasury. Further details are available upon request.

Prior Coverage
    Inspector General, DoD
    Inspector General, DoD, Report No. D-2002-040, “Promptness of FY 2002
    Second Quarter DoD Payments to the U.S. Treasury for District of Columbia
    Water and Sewer Services,” January 15, 2002

    Inspector General, DoD, Report No. D-2002-007, “Promptness of FY 2002
    First Quarter DoD Payments to the U.S. Treasury for District of Columbia
    Water and Sewer Services,” October 15, 2001




                                       6
Inspector General, DoD, Report No. D-2001-159, “Promptness and
Completeness of FY 2001 Fourth Quarter DoD Payments to the U.S. Treasury
for Water and Sewer Services Provided by the District of Columbia,”
July 13, 2001

Inspector General, DoD, Report No. D-2001-100, “Promptness and
Completeness of FYs 2000 and 2001 DoD Payments to the U.S. Treasury for
Water and Sewer Services Provided by the District of Columbia,”
April 13, 2001

Inspector General, DoD, Report No. D-2001-053, “DoD Payments to the
U.S. Treasury for Water and Sewer Services Provided by the District of
Columbia,” February 15, 2001




                                 7
Appendix B. DoD Customers of the District of
Columbia Water and Sewer Authority
According to the District of Columbia Water and Sewer Authority, the list below
identifies the 17 DoD Components for which the Water and Sewer Authority provides
estimated bills to the Department of the Treasury for water and sewer services for
FY 2002.


       Army
       Arlington National Cemetery
       Fort McNair
       Fort Myer
       Walter Reed Army Medical Center

       Navy
       Anacostia Naval Station
       Bellevue Naval Housing
       Marine Corps Barracks, 8th & I
       Naval Observatory
       Naval Research Laboratory
       Nebraska Avenue Annex
       Potomac Annex
       Washington Navy Yard

       Air Force
       Bolling Air Force Base

       Other Defense Organizations
       National Defense University Center
       National Imagery and Mapping Agency
       National War College
       Washington Headquarters Services




                                         8
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, Walter Reed Army Medical Center
Commander, Fort Myer
Director, Arlington National Cemetery

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Director, Field Support Activity

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Bolling Air Force Base

Defense Organizations
Director, Defense Finance and Accounting Service
Director, National Imagery and Mapping Agency
Director, Washington Headquarters Services

Non-Defense Federal Organizations
Office of Management and Budget
Inspector General, Department of the Treasury




                                           9
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         10
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Garold E. Stephenson
Robert K. West
Henry F. Kleinknecht
Ronald W. Hodges
Pauletta P. Battle
Robert T. Goodwin
Ann Thompson
